Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




PROGRAM INTEGRITY PROBLEMS
   WITH NEWLY ENROLLED
   MEDICARE EQUIPMENT
        SUPPLIERS




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-06-09-00230
                 E X E C U T I V E                                   S U M M A R Y



                        OBJECTIVES
                                1. To determine the extent to which newly enrolled suppliers of
                                   durable medical equipment, prosthetics, orthotics, and supplies
                                   (DMEPOS) had their billing privileges revoked or were placed
                                   on prepayment claims review.
                                2. To determine the extent to which newly enrolled suppliers
                                   omitted from their Medicare applications required information
                                   regarding (a) owners or managers or (b) the criminal histories of
                                   owners or managers or any adverse legal actions taken against
                                   these individuals.


                        BACKGROUND
                        Historically, DMEPOS suppliers have presented significant program
                        integrity problems for the Medicare program. In 2010, the Patient
                        Protection and Affordable Care Act (ACA) strengthened the
                        enrollment-screening process for all Medicare, Medicaid, and Children’s
                        Health Insurance Plan providers, including DMEPOS suppliers. The
                        Centers for Medicare & Medicaid Services (CMS) contractor responsible
                        for enrollment of new DMEPOS suppliers is the National Supplier
                        Clearinghouse Medicare Administrative Contractor (NSC). At the time
                        of our review and prior to ACA enactment, NSC assessed the fraud and
                        abuse risk of new supplier applicants and assigned each a risk rating
                        (from low to high), the Fraud and Abuse Indicator of Risk (FAIR). NSC
                        uses the FAIR rating to determine the frequency of unannounced site
                        visits for new enrollees. In February 2011, CMS staff stated that they
                        were developing policies and procedures to transition NSC’s FAIR
                        rating system and corresponding monitoring practices to the specific
                        policies and practices required by the ACA.
                        This report uses the results of contractors’ oversight activities as
                        indicators of program integrity problems among DMEPOS suppliers
                        during their first year in Medicare. Our nationally representative
                        sample of 229 DMEPOS suppliers enrolled in Medicare during October–
                        December 2008 includes suppliers representing all FAIR ratings. We
                        examined data from Medicare contractors to identify suppliers that had
                        their Medicare billing privileges revoked by CMS or that CMS placed on
                        prepayment claims review. We also used a proprietary database of
                        public records to identify suppliers that omitted required information
                        from their enrollment applications.

OEI-06-09-00230         P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   i
    E   X   E C   U T   I     V      E            S      U M           M       A      R Y



                            FINDINGS
                            During their first year in Medicare, 26 percent of high- and
                            medium-risk suppliers and 2 percent of low/limited-risk suppliers
                            had their billing privileges revoked or were placed on prepayment
                            claims review.
                            CMS revoked the Medicare billing privileges of 21 percent of high- and
                            medium-risk suppliers in their first year of enrollment. Although NSC
                            conducted postenrollment site visits within the timeframes required by
                            CMS, several suppliers in our sample had already received significant
                            Medicare payments before the first site visit. For example, one supplier
                            in our sample received almost $800,000 from Medicare prior to NSC’s
                            first postenrollment site visit. CMS placed 9 percent of high- and
                            medium-risk suppliers on prepayment claims review for reasons such as
                            billing for services not ordered by a physician or not rendered, having
                            unusual billing patterns, and failing to respond to CMS or contractor
                            requests for information. CMS revoked the Medicare billing privileges
                            of 2 percent of low/limited-risk suppliers. CMS did not place any of the
                            sampled low/limited-risk suppliers on prepayment claims review.
                            Thirteen percent of high- and medium-risk suppliers and 4 percent
                            of low/limited-risk suppliers omitted ownership or management
                            information from their Medicare enrollment applications. Our review
                            of public records revealed that these suppliers did not disclose the name
                            of at least one owner or manager. Further, 11 of the 20 sampled
                            suppliers that omitted ownership or management information remained
                            in Medicare through December 2010. This suggests that information
                            omitted from enrollment applications can remain undetected for more
                            than a year despite NSC’s application reviews and postenrollment site
                            visits.
                            Four percent of high- and medium-risk suppliers omitted
                            information regarding criminal histories or adverse legal actions
                            from their applications. In their applications, a small number of high-
                            and medium-risk suppliers did not report information regarding criminal
                            histories of their owners or managers and any adverse legal actions taken
                            against these individuals. Examples of omissions include convictions for
                            insurance fraud, theft by deception, and felony aggravated battery.




OEI-06-09-00230             P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   ii
    E   X   E C   U T   I     V      E            S      U M           M       A      R Y



                            RECOMMENDATIONS
                            Although ACA provisions strengthen the enrollment screening of
                            DMEPOS supplier applicants and CMS’s oversight authorities, our
                            review demonstrates that further scrutiny of the riskiest applicants is
                            needed to prevent dishonest individuals from receiving Medicare
                            payment. We recommend that CMS:
                            Conduct postenrollment site visits earlier for new DMEPOS suppliers
                            receiving the most money from Medicare. Although NSC conducted the
                            correct number of site visits of high- and medium-risk suppliers as
                            required by CMS, Medicare had already made significant payments to
                            some suppliers in our sample before they received their first
                            postenrollment site visits from NSC. CMS could use the FAIR rating to
                            prioritize certain newly enrolled suppliers and require NSC to conduct
                            postenrollment site visits earlier, possibly within a month, for newly
                            enrolled high- and medium-risk suppliers that submit large dollar
                            amounts of claims.
                            Apply investigative techniques and tools to identify any owners or
                            managers of DMEPOS suppliers who are not reported on supplier
                            applications as required. Our findings demonstrate that omissions of
                            the names of owners or managers can allow a supplier to gain billing
                            privileges when it might otherwise be denied Medicare participation. Such
                            omissions could circumvent ACA-required fingerprint-based criminal
                            background checks because CMS would not be running checks on omitted
                            individuals. CMS should improve processes to detect information that
                            suppliers may have deliberately omitted. CMS should focus such
                            investigative activities on suppliers deemed high- or medium-risk by an
                            in-depth assessment, such as the FAIR rating.
                            Take appropriate action regarding DMEPOS suppliers that omit
                            information from applications. We will forward to CMS the names of
                            those suppliers that we identified as having either omitted the names of
                            owners or managers or omitted information regarding the criminal
                            histories of owners or managers and any adverse legal actions taken
                            against these individuals. CMS can then determine whether the
                            omissions were intentional and whether further action is needed.
                            Additionally, in the future, when CMS determines that suppliers have
                            inappropriately omitted required information from their Medicare
                            enrollment applications, CMS should refer these individuals and
                            suppliers to OIG for (if warranted) permissive exclusion.



OEI-06-09-00230             P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   iii
    E   X   E C   U T   I     V      E            S      U M           M       A      R Y



                            AGENCY COMMENTS
                            In its comments on the draft report, CMS concurred with our
                            recommendations and stated that it is using authorities granted under
                            the ACA to address potential vulnerabilities. CMS stated that it will
                            instruct NSC to conduct earlier site visits of newly enrolled suppliers,
                            have its new DMEPOS supplier-screening contractor alert NSC and
                            MACs when it identifies individuals affiliated with companies but not
                            reported on enrollment documents, take appropriate action regarding
                            individuals identified by OIG, and continue to refer to law enforcement
                            suppliers that omitted required enrollment information.




OEI-06-09-00230             P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   iv
           T A B L E               O F                  C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i


                  INTRODUCTION ............................................ 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                               During their first year in Medicare, 26 percent of high- and
                               medium-risk suppliers and 2 percent of low/limited-risk
                               suppliers had their billing privileges revoked or were placed on
                               prepayment review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                               Thirteen percent of high- and medium-risk suppliers and 4 percent
                               of low/limited-risk suppliers omitted ownership or management
                               information from their Medicare enrollment applications. . . . . . . 12

                               Four percent of high- and medium-risk suppliers omitted
                               information regarding criminal histories or adverse legal actions
                               from their applications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                               Agency Comments and Office of Inspector General Response. . . . 16


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                               A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . 18

                               B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




OEI-06-09-00230          P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S
           I N T R O D U C T I O N


                    OBJECTIVES
                            1. To determine the extent to which newly enrolled suppliers of
                               durable medical equipment, prosthetics, orthotics, and supplies
                               (DMEPOS) had their billing privileges revoked or were placed
                               on prepayment claims review.
                            2. To determine the extent to which newly enrolled suppliers
                               omitted from their Medicare applications required information
                               regarding (a) owners or managers or (b) the criminal histories of
                               owners or managers and any adverse legal actions taken against
                               these individuals.


                    BACKGROUND
                    DMEPOS are covered under Medicare Part B and include items such as
                    oxygen supplies, wheelchairs, prosthetic limbs, and surgical dressings.1
                    Medicare covers DMEPOS only when ordered for a beneficiary by a
                    physician or, in some cases, a nonphysician practitioner. 2 Medicare
                    reimbursed $8.8 billion for DMEPOS in 2010.3
                    Historically, DMEPOS suppliers have presented significant program
                    integrity problems for the Medicare program. Prior Office of Inspector
                    General (OIG) work documented significant problems, including
                    fraudulent Medicare billing by suppliers, particularly in specific
                    high-risk geographic areas. 4 To help protect Medicare from DMEPOS
                    fraud and abuse, the Centers for Medicare & Medicaid Services (CMS)
                    has over time instituted standards of participation for DMEPOS
                    suppliers, processes for screening new supplier applicants, and

                      1 See Social Security Act §§ 1832(a), 1861(s)(6), and 1861(s)(8). The complete list of
                    covered items can be found online at www.cms.gov. Accessed on October 7, 2010.
                        2   Medicare Program Integrity Manual (PIM), Pub. No. 100-08, ch. 5, § 5.2.
                        3 The figure cited is for reimbursement amounts for all DMEPOS claims in 2010 and is
                    based on OIG analysis of the National Claims History File.
                      4 See, for example, Department of Health and Human Services (HHS) OIG, South Florida
                    Suppliers’ Compliance With Medicare Standards: Results From Unannounced Visits, OEI-
                    03-07-00150, March 2007; HHS OIG, Los Angeles County Suppliers’ Compliance With
                    Medicare Standards: Results From Unannounced Visits, OEI-09-07-00550, February 2008;
                    HHS OIG, South Florida Medical Equipment Suppliers: Results of Appeals,
                    OEI-03-07-00540, October 2008; HHS OIG, Power Wheelchairs in the Medicare Program:
                    Supplier Acquisition Costs and Services, OEI-04-07-00400, August 2009; HHS OIG,
                    Payments to Medicare Suppliers and Home Health Agencies Associated With “Currently
                    Not Collectible” Overpayments, OEI-06-07-0080, November 2008; and HHS OIG, Aberrant
                    Claims Patterns for Inhalation Drugs in South Florida, OEI-03-08-00290, April 2009.



OEI-06-09-00230     P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   1
    I   N T       R O   D   U      C T           I     O      N


                                requirements for contractor monitoring of suppliers. In 2010, the
                                Patient Protection and Affordable Care Act (ACA) strengthened the
                                enrollment-screening process for all providers—including DMEPOS
                                suppliers—participating in Medicare, Medicaid, and the Children’s
                                Health Insurance Program (CHIP).
                                DMEPOS Supplier Standards of Participation
                                To participate in Medicare, each DMEPOS supplier must complete an
                                enrollment application and demonstrate that it meets the 30 standards
                                of participation.5 CMS can deny enrollment to applicants that do not
                                meet one or more of the standards.6 CMS can also revoke the billing
                                privileges of existing Medicare suppliers that do not continue to meet
                                the standards.7
                                DMEPOS applicants must also provide “complete and accurate
                                information in response to questions” on enrollment applications. 8
                                Applicants must disclose—among other information—the identity of any
                                person or business that has an ownership or a controlling interest in the
                                business or that functions in a management role.9 For each person or
                                business on the application, suppliers must also report any history of
                                certain types of criminal convictions and adverse legal actions taken
                                against the person or business, such as exclusions from a Federal or
                                State health care program, loss of billing privileges, and payment
                                suspensions.10
                                DMEPOS Supplier Applicant Screening and Risk Assessment
                                The CMS contractor responsible for the DMEPOS supplier enrollment
                                process is the National Supplier Clearinghouse Medicare
                                Administrative Contractor (NSC). NSC’s responsibilities include
                                reviewing enrollment applications, conducting unannounced site visits
                                to applicants’ business locations, conducting fraud risk assessments,
                                and issuing Medicare billing numbers to applicants that meet program
                                participation standards.



                                  5 42 CFR § 424.57 and 42 CFR pt. 424, subpart P. The number of standards of
                                participation that apply to DMEPOS suppliers has increased over time.
                                    6 42 CFR § 424.57(b) and (d). (Subsequently, paragraph (d) was moved to paragraph (e).)
                                    7 Ibid.
                                    8 42 CFR § 424.57(c)(2). See also 42 CFR § 424.510(d)(2)(i).
                                    9 Sections 5 and 6 of Form CMS-855S. CMS requires this information pursuant to
                                42 CFR §§ 420.206 and 424.510(d)(2)(i).
                                    10 Sections 3, 5, and 6 of Form CMS-855S.




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   2
    I   N T       R O   D   U      C T           I     O      N


                                Enrollment application review. CMS requires NSC to review suppliers’
                                enrollment applications and supporting documentation for complete and
                                valid information. 11 To determine its accuracy, NSC compares some
                                applicant-reported information—such as National Provider Identifier
                                (NPI) and Tax Identification Number—to external sources. However,
                                the accuracy of some reported information cannot be readily determined
                                by NSC. For example, CMS recently stated: “While we require our
                                Medicare contractors to verify data submitted on, and as part of, the
                                Medicare provider/supplier application, our contractors are not able to
                                verify information that may have been purposefully omitted or changed
                                in a manner to obfuscate any previous criminal activity.” 12
                                Preenrollment site visits. CMS requires NSC to conduct at least one
                                unannounced site visit to an applicant’s business location to assess
                                compliance with the Medicare standards of participation, with certain
                                types of supplier applicants exempted. 13 In site visit reports, NSC
                                investigators record their findings about supplier compliance with
                                standards and their assessment of the fraud risk that the applicant
                                poses. The site investigation reports also include site investigator notes
                                from supplier staff interviews; photographs of the business and onsite
                                inventory; and any supporting documentation obtained, such as
                                business and professional licenses.
                                Supplier approval and risk rating. Once NSC determines that a supplier
                                applicant meets the Medicare standards of participation, it grants the
                                new supplier Medicare billing privileges by assigning a unique billing
                                number for each approved business location. At the time of our review
                                and prior to ACA enactment, NSC also assessed the fraud and abuse
                                risk of new supplier applicants and assigned each a risk rating called
                                the Fraud and Abuse Indicator of Risk (FAIR). 14 (We discuss related
                                ACA-required changes beginning on page 5.) Prior to ACA enactment,
                                DMEPOS suppliers were the only Medicare provider type to receive
                                risk-based screening and monitoring as part of their participation. 15


                                    11 NSC Statement of Work (SOW), Att. J.1, § 1.2.2, obtained by OIG from CMS on
                                June 18, 2009.
                                    12 76 Fed. Reg. 5867 (Feb. 2, 2011).
                                    13 NSC SOW, Att. J.1, § 1.15. Certain Medicare suppliers were exempt from these
                                preenrollment site visit requirements, including suppliers with 25 or more active locations,
                                physicians, and certified Medicare providers (e.g., hospitals, home health agencies).
                                    14   PIM, ch. 10 § 21.4. Formerly known as Fraud Level Indicator. See also NSC SOW.
                                    15 See     PIM, ch. 10.



OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   3
    I   N T       R O   D   U      C T           I     O      N


                                To determine the FAIR rating, NSC scored each applicant using
                                15 predefined risk factors, such as:
                                ● the applicant’s geographic area,

                                ● the fraud potential of the applicant’s products and services,

                                ● the applicant’s prior Medicare experience, and

                                ● the applicant’s site visit results. 16

                                Using information from the site visit report and the supplier’s
                                application, NSC assigned one of four FAIR ratings:
                                ● low risk (e.g., national drugstore),

                                ● limited risk (e.g., clinicians in low-fraud areas),

                                ● medium risk (e.g., medium-sized medical supplier in a high-fraud
                                    area), or
                                ● high risk (e.g., small supplier with low inventory levels in a
                                    historically high-fraud area). 17
                                NSC tracked each supplier’s individual risk factors and FAIR score on a
                                spreadsheet, known as the FAIR matrix. Once a supplier was approved
                                to participate in Medicare, the newly enrolled supplier’s FAIR rating
                                determined the number of postenrollment site visits that NSC
                                performed to ensure continuing supplier compliance with the
                                participation standards.
                                Postenrollment Site Visits of DMEPOS Suppliers
                                At the time of our review, CMS required NSC to conduct at least one
                                postenrollment site visit per year for medium-risk suppliers and at least
                                two for high-risk suppliers. 18 CMS did not require postenrollment site
                                visits for low-risk or limited-risk suppliers, although NSC could decide
                                to conduct a visit if complaints or other factors generated concern about
                                a supplier. 19 CMS also required NSC to update each supplier’s FAIR
                                rating at least annually, based in part on information gathered during
                                site visits. 20



                                    16 NSC SOW, App. J.1, §1.2.1.
                                    17 PIM, ch. 10, § 21.4; NSC SOW, Att. J.1, § 1.2.1.
                                    18 NSC SOW, Att. J.1, § 1.2.2.
                                    19 Ibid.
                                    20 NSC SOW, Att. J.1, § 1.19.1.




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   4
    I   N T       R O   D   U      C T           I     O N


                                Related Changes From the Affordable Care Act
                                Section 6401 of the ACA added new requirements at 1866(j)(2) for the
                                Secretary to conduct certain enrollment-screening measures for
                                different types of Medicare providers, including DMEPOS suppliers. In
                                February 2011, CMS promulgated a final rule implementing those
                                provisions effective March 25, 2011, for all new DMEPOS supplier
                                applicants and existing Medicare suppliers revalidating their
                                enrollment information. For all other currently enrolled suppliers, the
                                rule will become effective March 23, 2012.21
                                To implement the new screening measures, CMS will classify all
                                DMEPOS suppliers into one of three risk categories: limited, moderate,
                                or high. 22 CMS will assign nearly all newly enrolling DMEPOS
                                suppliers to the “high risk” category and currently enrolled and
                                revalidating DMEPOS suppliers to the “moderate risk” category. 23
                                Screening will include at a minimum, verification of compliance with
                                Federal and State requirements, licensure checks, and database checks.
                                Each supplier in the moderate- and high-risk categories must also
                                undergo an onsite visit. 24 High-risk suppliers—both current suppliers
                                and applicants—must submit the fingerprints of all owners with 5
                                percent or greater direct or indirect ownership, who are then subject to
                                a fingerprint-based criminal history report. 25
                                The risk-rating system to be implemented by CMS puts all new
                                DMEPOS supplier applicants into the high-risk category. In
                                February 2011, CMS staff stated that CMS is developing appropriate
                                policies and procedures to transition NSC’s FAIR rating system and
                                corresponding monitoring practices to the specific ACA-required policies
                                and practices.
                                A related change resulting from the ACA involves disclosure of
                                information on enrollment applications and updates of enrollment
                                application information by existing suppliers. The ACA requires
                                suppliers to disclose any current or previous affiliation with other
                                providers or suppliers that have certain Medicare, Medicaid, or CHIP

                                    21 76 Fed. Reg. 5865 (Feb. 2, 2011). Any currently enrolled supplier that revalidates its

                                enrollment information on or after March 25, 2011, and before March 24, 2012, is also
                                subject to the rule.
                                    22 76 Fed. Reg. 5862, 5867 (Feb. 2, 2011).
                                    23 42 CFR § 424.518 (b)(1)(x) and (c)(1)(ii), effective March 25, 2011.
                                    24 42 CFR § 424.518 (a) and (b).
                                    25 42 CFR § 424.518 (c); 76 Fed. Reg. 5862 (Feb. 2, 2011).




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   5
    I   N T       R O   D   U      C T           I     O      N


                                program integrity problems, including uncollected debt, payment
                                suspension, exclusion from program participation, and revocation of
                                billing privileges. 26 CMS has authority to deny or revoke the Medicare
                                billing privileges of suppliers for submitting false or misleading
                                information on the Medicare enrollment applications. 27
                                Indicators of Program Integrity Problems
                                This report uses the results of several contractors’ oversight activities as
                                indicators of program integrity problems among DMEPOS suppliers
                                during their first year in Medicare. As stated, NSC is responsible for
                                screening supplier applicants and conducting unannounced site visits.
                                Durable Medical Equipment Medicare Administrative Contractors
                                (DME MAC) are responsible for DMEPOS claims processing activities,
                                which can include monitoring supplier billing, identifying and collecting
                                overpayments, and following up on complaints against suppliers.
                                Program Safeguard Contractors (PSC) and Zone Program Integrity
                                Contractors (ZPIC) are responsible for conducting a variety of oversight
                                activities, such as prepayment and postpayment medical reviews of
                                claims, provider education, and data analysis, to detect potential
                                overpayments and fraud. 28
                                We focus on two types of CMS enforcement actions that potentially
                                result from these contractors’ oversight activities: revocation of billing
                                privileges and prepayment claims reviews.
                                • Revocation of Billing Privileges. A revocation is the termination of a
                                  supplier’s billing privileges. Revocations can be imposed for
                                  noncompliance with the participation standards, supplier misconduct,
                                  felony conviction, providing misleading information, or misuse of a
                                  billing number, among other reasons.29 Once their billing privileges
                                  are revoked, suppliers are barred from participating in Medicare for a
                                  minimum of 1 year, but not greater than 3 years, depending on the
                                  reason for revocation. 30
                                • Prepayment Claims Review. PSCs and ZPICs conduct prepayment
                                  claims review when they have evidence that a supplier submitted


                                    26 ACA § 6401; Social Security Act § 1866(j)(5).
                                    27 42 CFR §§ 424.530(a) and 424.535(a).
                                    28 CMS was transitioning PSCs to ZPICs nationwide at the time of our review.
                                    29 See 42 CFR § 424.535(a) and § 424.57(e) for the complete list of revocation reasons.
                                See also PIM, ch. 10, § 13.2.
                                    30 42 CFR § 424.535(c).




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   6
    I   N T       R O   D   U      C T           I     O      N


                                    improper or potentially fraudulent claims. Factors leading to
                                    prepayment review include unusual supplier billing patterns,
                                    knowledge of abuses in the service area, or complaints received from
                                    beneficiaries or others. Prepayment reviews vary in scope; they can
                                    include all claims from a particular provider, or they can focus on
                                    selected services, place of service, or other specific criteria. 31


                                METHODOLOGY
                                Scope and Sample
                                We selected a stratified random sample of DMEPOS suppliers that
                                enrolled in Medicare for the first time between October 1 and
                                December 31, 2008. We stratified by the supplier’s FAIR rating at the
                                time of enrollment. Using the NSC supplier enrollment file, we
                                identified 430 low-risk, 529 limited-risk, 207 medium-risk, and
                                67 high-risk suppliers.
                                For sampling and analysis purposes, we combined the groups with FAIR
                                ratings of “low risk” and “limited risk” into one stratum, because NSC
                                staff informed us that it treats suppliers in the two groups virtually the
                                same once they have been approved for Medicare participation. We
                                hereafter refer to this stratum as low/limited-risk suppliers. The
                                low/limited-risk stratum consisted of 91 of the 959 low-risk and
                                limited-risk suppliers. The medium-risk stratum consisted of 71 of the
                                207 medium-risk suppliers, and the high-risk stratum consisted of all
                                67 high-risk suppliers. Our total sample consisted of 229 suppliers, and
                                we had a 100-percent response rate. 32
                                We examined multiple data sources regarding the sampled suppliers,
                                covering the period from the date of their Medicare enrollment through
                                December 31, 2009. Although we refer to the review period as “the first
                                year of enrollment,” the actual review period for each supplier spanned
                                up to 15 months, depending on each supplier’s enrollment date. For
                                example, a supplier that was enrolled on October 1, 2008, would have
                                been in the program for 15 months by December 31, 2009, whereas a
                                supplier that enrolled on December 31, 2008, would have been in the
                                program for only 12 months.



                                    31   PIM, ch. 3.
                                    32 We originally selected 92 low/limited-risk suppliers but eliminated 1 supplier from the

                                sample because of an error in the data regarding the supplier’s enrollment date.



OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   7
    I   N T       R O   D   U       C T          I     O      N


                                Data Collection and Analysis
                                We used multiple data sources for our review.
                                ● Medicare claims data. We used CMS’s National Claims History
                                  File to identify Medicare reimbursements for each supplier in our
                                  sample.
                                ●   Data on revocation of Medicare billing privileges. We used NSC
                                    data to identify suppliers in our sample whose billing privileges
                                    were revoked during the study period, the revocation dates, and the
                                    reasons for revocation.
                                ●   Prepayment claims review data. We used data from five CMS
                                    contractors to identify sampled suppliers placed on prepayment
                                    review during the study period and the dates of the reviews. 33
                                ●   Supplier enrollment applications. We obtained all sampled
                                    suppliers’ enrollment applications (Form CMS-855S) and any
                                    updates to them.
                                ●   NSC site investigator reports. We obtained all reports completed by
                                    NSC site investigators after they conducted an unannounced visit
                                    to each sampled supplier’s place of business.
                                Analysis of DMEPOS supplier program integrity problems. To determine the
                                extent to which these newly enrolled suppliers had indicators of
                                program integrity problems, we analyzed each supplier’s Medicare
                                enrollment application, reports from NSC’s site investigation(s) of the
                                supplier, claims submitted by the supplier, and any CMS enforcement
                                actions taken against the supplier. Our findings focus on two CMS
                                enforcement actions: revocation of suppliers’ billing privileges and
                                placement of suppliers on prepayment claims review. Revoking a
                                supplier’s billing privileges is one of the strongest enforcement actions
                                that CMS can take. Likewise, placing a supplier on prepayment review
                                indicates that CMS has significant concerns about the legitimacy of that
                                supplier’s claims. Collectively, these data sources exhibited indicators
                                of program integrity problems with suppliers during their first year in
                                Medicare.
                                Analysis of supplier omission of required information. To determine the
                                extent to which newly enrolled suppliers omitted required information
                                regarding their owners and managers and these individuals’ criminal

                                  33 AdvanceMed ZPIC, Health Integrity ZPIC, Safeguard Services ZPIC, Safeguard

                                Services PSC, and Tricenturion PSC provided this data.



OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   8
    I   N T       R O   D   U      C T           I     O      N


                                histories from their enrollment applications, we compared each
                                supplier’s reported information to the personal, corporate, and criminal
                                records information stored in Lexis/Nexis Accurint for Government
                                (hereinafter referred to as Accurint) for each of the 229 suppliers in our
                                sample.34 We used Accurint to identify individuals who were not
                                disclosed on the enrollment application, but who were listed in public
                                records as a current owner or manager of the supplier. By matching
                                Social Security Numbers and dates of birth, we checked the criminal
                                histories of owners or managers listed on the enrollment applications to
                                identify whether any reported owners or managers did not fully disclose
                                their criminal histories.35
                                For purposes of the report, we present certain findings for the high- and
                                medium-risk strata together. We chose this presentation because we
                                identified few notable differences in the rates of program integrity
                                problems between the high- and medium-risk suppliers, whereas the
                                main differences were between low/limited-risk suppliers and the
                                combined group of high- and medium-risk suppliers. Based on the
                                stratified sample design, all findings can be projected to the population
                                of suppliers newly enrolled in Medicare during October–December 2008,
                                unless otherwise noted as applying specifically to sampled suppliers.
                                See Appendix A for statistical estimates and confidence intervals.
                                Limitations
                                Our findings about supplier omissions on enrollment applications are
                                subject to an inherent limitation in Accurint’s data—namely, that
                                because of State privacy laws, the types of public records stored in
                                Accurint are not uniform across States. As a result, some record types


                                  34 Accurint is a database available to law enforcement agencies that collects a broad
                                array of public records on both businesses and individuals. For business searches, Accurint
                                draws from corporate filings, property information, phone listings, professional licenses,
                                and Securities and Exchange Commission filings, among other data. For personal searches,
                                Accurint contains information on Social Security numbers, driver’s licenses, and
                                professional licenses. Information on property assets and court proceedings is also
                                available both for individuals and businesses.
                                    35 We limited the Accurint review (for omitted criminal histories and adverse legal

                                actions) to only high- and medium-risk suppliers. We did this because of the
                                time-consuming nature of the Accurint analysis and because low/limited-risk suppliers—
                                such as larger national chain pharmacies—often listed corporate officers rather than
                                owners on their applications. Additionally, exploratory analysis suggested that we would
                                find few, if any, omissions of criminal history information among low/limited-risk suppliers.
                                Criminal records data from Accurint typically included the specific charge, charge date, and
                                legal outcome.



OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   9
    I   N T       R O   D   U      C T           I     O      N


                                (e.g., financial filings) were not available for all sampled suppliers, and
                                the comprehensiveness of criminal records, in particular, varied by
                                State. We did not verify the accuracy of the public records stored in
                                Accurint, as that was beyond the scope of this review.
                                Another limitation applies to our findings regarding indicators of
                                supplier program integrity problems. CMS and its contractors conduct
                                more oversight of high- and medium-risk suppliers than of
                                low/limited-risk suppliers, and this additional oversight may result in
                                more enforcement actions.
                                Standards
                                This study was conducted in accordance with the Quality Standards for
                                Inspection and Evaluation issued by the Council of the Inspectors
                                General on Integrity and Efficiency.




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   10
         B A
                 FN IN NE DR I N2 NG DS                     P A          G       E
       
      During their first year in Medicare, 26 percent of        A projected 26 percent of high- and
    high- and medium-risk suppliers and 2 percent of            medium-risk suppliers had a CMS
  low/limited-risk suppliers had their billing privileges       enforcement action, and 4 percent
revoked or were placed on prepayment claims review              both had their billing privileges
                                                                revoked and were placed on
                              prepayment review. None of the low/limited-risk suppliers in the
                              sample had been subject to both CMS enforcement actions.
                              CMS revoked the Medicare billing privileges of 21 percent of high- and
                              medium-risk suppliers, yet some received large Medicare payments prior to
                              revocation
                              Medicare reimbursed high-risk suppliers $2.8 million and medium-risk
                              suppliers $70,582 prior to the revocations of their billing privileges.
                              Combined, this equates to an average of $191,841 per supplier that had
                              its billing privileges revoked and received any payments from
                              Medicare. 36
                              Revocations occurred after NSC determined that the newly enrolled
                              suppliers no longer met all Medicare supplier participation standards.
                              Among the 28 suppliers in our sample whose billing privileges had been
                              revoked, revocation occurred for 16 because they had not paid the surety
                              bond newly required for DMEPOS suppliers as of July 1, 2009. All 16 of
                              these supplier revocations occurred within a 4-day period when NSC
                              began fully enforcing the new surety bond requirement.
                              For the remaining 12 of the 28 suppliers in our sample, NSC coded the
                              reason for revocation of billing privileges as “failure to meet all
                              standards.” For this group, revocation often occurred shortly after NSC
                              conducted postenrollment site visits to the suppliers’ places of business;
                              CMS revoked these suppliers’ billing privileges an average of 16 days
                              after a site visit. This timing suggests that revocation stemmed from
                              information gathered during NSC’s site visits.
                              NSC conducted postenrollment site visits largely within the timeframes
                              required by CMS. For the suppliers that required two unannounced
                              visits during the first year of enrollment, NSC conducted its first
                              postenrollment site visit an average of 163 days (5.4 months) after
                              enrollment. For suppliers that required only one site visit during the



                                  36 CMS revoked the billing privileges of 28 high- and medium-risk suppliers in our
                              sample. Fifteen received Medicare reimbursement prior to revocation. Of those suppliers
                              that received reimbursement, eight were high risk and seven were medium risk.



     OEI-06-09-00230          P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   11
    F    I   N    D I   N G    S


                              first year of enrollment, NSC conducted the visit an average of 325 days
                              (10.8 months) after enrollment.
                              However, several suppliers in our sample had already received
                              significant Medicare payments before their first postenrollment site
                              visit and the subsequent revocation of their billing privileges. For
                              example, one sampled supplier received almost $800,000 from Medicare
                              prior to its first postenrollment site visit, which NSC conducted
                              7 months after the supplier enrolled. Medicare paid another supplier in
                              our sample over $500,000 before NSC conducted the first
                              postenrollment site visit, 5 months after the supplier enrolled.
                              CMS placed 9 percent of high- and medium-risk suppliers on
                              prepayment claims review
                              CMS instituted prepayment claims reviews for reasons such as billing
                              for services not ordered by a physician, billing for services not rendered,
                              having unusual billing patterns, and failing to respond to CMS or
                              contractor requests for additional information. As projected from our
                              sample, high- and medium-risk suppliers placed on prepayment review
                              received $6.7 million from Medicare during our study period. During
                              the study period, CMS ultimately revoked the billing privileges of 8 of
                              the 17 suppliers in our sample that it placed on prepayment review.
                              CMS revoked the Medicare billing privileges of a projected 2 percent of
                              low/limited-risk suppliers; none of the low/limited-risk suppliers were placed
                              on prepayment claims review
                              Low/limited-risk suppliers demonstrated few problems. Those sampled
                              suppliers whose billing privileges were revoked did not receive any
                              Medicare reimbursement prior to revocation. Both suppliers’ billing
                              privileges were revoked for nonpayment of the surety bond.

                                                                    Our review of public records
           Thirteen percent of high- and medium-risk
                                                                    revealed that a projected
           suppliers and 4 percent of low/limited-risk
                                                                    13 percent of high- and medium-
        suppliers omitted ownership or management                   risk suppliers and 4 percent of
          information from their Medicare enrollment                low/limited-risk suppliers omitted
                                         applications               the name of an owner or a
                                                                    manager. By the end of 2009,
                              Medicare reimbursed the 9 sampled high-risk suppliers $2.64 million
                              and reimbursed the 6 sampled medium-risk suppliers $280,596. Of the
                              four low/limited-risk sampled suppliers that omitted ownership or
                              management information, two received $5,217 during the study period
                              and the other two did not receive any payments. Further, 11 of the

OEI-06-09-00230               P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   12
    F   I   N     D I   N G    S


                              20 high- and medium-risk sampled suppliers that omitted ownership or
                              management information remained in Medicare at the end of 2010.
                              Combined, these findings suggest that information omitted from
                              enrollment applications can remain undetected despite NSC application
                              reviews and postenrollment site visits. 37
                              The types of supplier omissions varied. In one example, an owner’s
                              spouse was listed as an owner on State incorporation documents but
                              was never disclosed to CMS on the supplier’s enrollment application. In
                              another example, individuals listed on incorporation documents had
                              apparently left the company. For 5 of the 20 high- and medium-risk
                              sampled suppliers that omitted ownership or management information,
                              we found that the omitted owners or managers had prior convictions for
                              serious crimes or had been subject to adverse legal actions. Whether
                              those convictions were the reason that the applicant omitted the
                              owner/manager or whether the omissions reflect honest errors requires
                              further investigation. For the low/limited-risk suppliers in our sample,
                              we did not identify any prior convictions of omitted owners or managers
                              or other adverse legal actions taken against these individuals.

   Four percent of high- and medium-risk suppliers                     A small number of high- and
 omitted information regarding criminal histories or                   medium-risk suppliers did not
                                                                       report either criminal histories
       adverse legal actions from their applications
                                                                       or adverse legal actions taken
                              against owners or managers listed on the suppliers’ applications.
                              However, four of the six suppliers in our sample that omitted this
                              information did not submit Medicare claims during our study period.
                              Medicare reimbursed the other two suppliers a total of $369,054 by the
                              end of 2009.
                              Examples of adverse legal actions not reported by suppliers in our
                              sample include insurance fraud, theft by deception, felony drug
                              possession, and felony aggravated battery. Convictions like these, if
                              reported, might have resulted in the denial of an applicant’s Medicare
                              enrollment application, and their omission is potential grounds for both
                              revocation of billing privileges and permissive exclusion by OIG.38 For
                              example, one high-risk supplier failed to disclose the prior Medicare
                              exclusion of one of its owners by omitting that fact on the application.


                                37 We did not classify an individual’s name as “omitted” if the name was added to a

                              supplier’s file at any time during the first year of the supplier’s enrollment.
                                  38 42 CFR § 424.57(e).




OEI-06-09-00230               P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   13
    F   I   N     D I   N G    S


                              Additionally, the supplier transposed the last two digits of the owner’s
                              Social Security number, meaning that when NSC checked the listed
                              Social Security number against the Medicare Exclusions Database, no
                              matches came up. Ultimately, NSC revoked the supplier’s billing
                              privileges within 4 months of enrollment. The supplier did not receive
                              any Medicare reimbursement prior to revocation.
                              Other supplier omissions occurred after enrollment, with suppliers
                              failing to notify NSC within 30 days of adverse legal actions taken
                              against them, as required. If this information is not disclosed, the
                              supplier could continue to receive reimbursement until NSC detects the
                              adverse legal action through other methods. For example, during an
                              unannounced site visit to a high-risk supplier in our sample, the NSC
                              investigator learned from the supplier’s landlord that the supplier’s
                              owner was incarcerated, which the investigator confirmed with the
                              Federal Bureau of Prisons. Based on the site investigator’s notes and
                              our review of public records, the incarcerated owner also owned or
                              managed five other Medicare-participating businesses. This sampled
                              supplier received $65,000 from Medicare before NSC conducted the
                              postenrollment site visit, discovered the supplier’s omission, and
                              revoked its billing privileges 6 months after enrollment.




OEI-06-09-00230               P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   14
           R E C O M M E N D A T I O N S

                    The ACA strengthens enrollment screening for all supplier and provider
                    types across Medicare, Medicaid, and CHIP. Prior to ACA enactment,
                    DMEPOS suppliers were the only Medicare provider type to receive
                    risk-based screening and monitoring as part of their Medicare
                    participation. This subjected the highest risk DMEPOS applicants to
                    enrollment screening, unannounced preenrollment site visits, and one
                    or more postenrollment site visits during the first year of program
                    participation.
                    We found that a number of newly enrolled high- and medium-risk
                    DMEPOS suppliers still exhibited program integrity problems once
                    enrolled. Some suppliers in our sample received significant Medicare
                    reimbursement before NSC conducted its first postenrollment site visits
                    and CMS took enforcement actions. Further, some high- and
                    medium-risk DMEPOS applicants omitted owner or manager
                    information that, if disclosed on their applications or discovered by CMS
                    and its contractors, might have prevented their entering the program or
                    prevented their continued enrollment. These findings demonstrate
                    enduring program integrity problems among DMEPOS suppliers and
                    illustrate why effective monitoring of this provider group is essential.
                    Although the ACA strengthens enrollment screening of DMEPOS
                    supplier applicants and CMS oversight authorities, further scrutiny of
                    the riskiest applicants and enrolled suppliers is needed to prevent
                    dishonest individuals from receiving Medicare payment. Therefore, we
                    recommend that CMS:
                    Conduct postenrollment site visits earlier for new DMEPOS suppliers
                    receiving the most money from Medicare
                    Although NSC conducted site visits of high- and medium-risk suppliers as
                    required by CMS, Medicare had already made significant payments to
                    some suppliers in our sample before they received their first
                    postenrollment site visits from NSC. CMS could use the FAIR rating to
                    prioritize certain newly enrolled suppliers and require NSC to conduct
                    postenrollment site visits earlier, possibly within a month, for newly
                    enrolled high- and medium-risk suppliers that submit large dollar
                    amounts of claims. CMS could also use prepayment claims reviews for
                    high-billing newly enrolled high- and medium-risk suppliers.




OEI-06-09-00230     P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   15
    R   E C       O   M   M   E     N D           A T          I     O      N       S


                              Apply investigative techniques and tools to identify any owners or
                              managers of DMEPOS suppliers who are not reported on supplier
                              applications as required
                              Our findings demonstrate that omissions of the names of owners or
                              managers can allow a supplier to gain billing privileges when it might
                              otherwise be denied Medicare participation. Additionally, CMS
                              recognizes that its contractors are not currently able to verify
                              information that may have been purposely omitted or changed in such a
                              manner as to obfuscate it. Consequently, such omissions could
                              circumvent new fingerprint-based criminal background checks added by
                              the ACA.
                              Therefore, CMS should improve processes to detect information that
                              may be purposely omitted by individuals who are intent on defrauding
                              the program. In doing so, CMS could establish mechanisms to access
                              public records, as we did for this report, to identify all owners and
                              managers who should be listed by new DMEPOS applicants. Given that
                              few low/limited-risk suppliers in our sample omitted such information,
                              CMS should focus such investigative activities on suppliers deemed high
                              or medium risk by in-depth assessments, such as the FAIR rating.
                              Take appropriate action regarding DMEPOS suppliers that omit
                              information from applications
                              We will forward to CMS the names of those suppliers that we
                              identified as having omitted (a) the names of owners or managers or
                              (b) information regarding the criminal histories of owners or
                              managers or any adverse legal actions taken against these
                              individuals. CMS can then determine whether the omissions were
                              intentional and whether further action is needed. Additionally, in the
                              future, when CMS determines that suppliers have inappropriately
                              omitted required information from a Medicare enrollment application,
                              CMS should refer these individuals and suppliers to OIG for (if
                              warranted) permissive exclusion.


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              In its comments on the draft report, CMS concurred with our
                              recommendations and stated that it is using authorities granted
                              under the ACA to address potential vulnerabilities.




OEI-06-09-00230               P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   16
    R   E C       O   M   M   E     N D           A T          I     O      N       S


                              In response to our recommendation to conduct postenrollment site
                              visits earlier for new DMEPOS suppliers receiving the most money
                              from Medicare, CMS stated that it has already taken steps to address
                              this issue. In December 2009, the NSC began conducting at least bi-
                              monthly observational site visits on suppliers with a FAIR rating of
                              High. CMS stated that it will instruct NSC to perform, at a
                              minimum, an observational site visit on all suppliers with a FAIR
                              rating of High within 60 days of enrollment and those with a FAIR
                              rating of Medium within 120 days of enrollment.
                              In response to our recommendation to apply investigative techniques
                              and tools to identify any owners or managers of DMEPOS suppliers
                              who are not reported on supplier applications as required, CMS
                              stated that beginning December 2011, a new screening contractor will
                              use external referential data to identify individuals affiliated with
                              companies but not reported on enrollment documents and will alert
                              NSC and the MACs accordingly.
                              In response to our recommendation to take appropriate action
                              regarding DMEPOS suppliers that omit information from
                              applications, CMS stated that it will research and take action, if
                              appropriate, on those individuals identified by OIG. CMS also stated
                              that it will continue to refer to law enforcement agencies for action at
                              their discretion any individuals and suppliers identified as having
                              inappropriately omitted required information from enrollment
                              applications.
                              For the full text of CMS comments, see Appendix B. We made minor
                              changes to the report based on technical comments.




OEI-06-09-00230               P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   17
           A P P E N D I X                          ~           A

                    Estimates and Confidence Intervals
                    We calculated estimates and corresponding 95-percent confidence
                    intervals using the statistical software program Sudaan, which
                    calculated correct standard errors based on the stratified sample design.


                       Table A-1: Percent Estimates and Confidence Intervals

                                                                                              Estimated                              95-Percent
                                                                                             Percentage                              Confidence
                      Type of Supplier                                                      of Suppliers                                Interval
                      At Least One Enforcement Action
                      Low Risk                                                                          2.2%                           0.6–8.0%
                      High and Medium Risk                                                            26.1%                        20.3–32.8%
                      Both Enforcement Actions
                      High and Medium Risk                                                              3.6%                           2.3–5.8%
                      Billing Privilege Revocation
                      Low Risk                                                                          2.2%                           0.6–8.0%
                      High and Medium Risk                                                            20.7%                        15.4–27.2%
                      Prepayment Review
                      Low Risk                                                                          0.0%                           0.0–4.0%
                      High and Medium Risk                                                              9.0%                         6.2–12.9%
                      Omission of Ownership or Management
                        Information
                      Low Risk                                                                          4.4%                         1.7–10.8%
                      High and Medium Risk                                                            12.9%                          9.0–18.2%
                      Omission of Criminal or Adverse Legal History
                      High and Medium Risk                                                              3.6%                           1.8–6.9%
                                                                        Low/Limited-Risk Suppliers (sample size=91)
                                                                 High- and Medium-Risk Suppliers (sample size=138)
                      Source: Office of Inspector General (OIG) analysis of 229 newly enrolled suppliers of
                      durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS), 2011.




OEI-06-09-00230     P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   18
 A   P P     E    N   D I   X    ~     A




                                Table A-2: Reimbursement of Suppliers on Prepayment Review
                                                                                          Estimated Reimbursement                                                          95-Percent
                                Type of Supplier                                                       of Suppliers                                                Confidence Interval

                                High and Medium Risk                                                            $6,722,258.35                       $5,781,020.95–$7,663,495.75

                                                                                                                High- and Medium-Risk Suppliers (sample size=138)

                                Source: OIG analysis of 229 newly enrolled DMEPOS suppliers, 2011.




                                Table A-3: Averaged Elapsed Time Before First
                                Postenrollment Site Visit

                                                                                                                                        95-Percent
                                Type of Supplier                                       Estimated Days                           Confidence Interval

                                Medium Risk                                                   325.30 days                    306.69–343.91 days

                                                                                          Medium-Risk Suppliers (sample size=60)*

                                * Eleven medium-risk suppliers in our sample did not have postenrollment site visits
                                conducted by the National Supplier Clearinghouse, six were exempt from site visits, and
                                five had their Medicare billing privileges revoked prior to a first site visit.

                                Source: OIG analysis of 229 newly enrolled DMEPOS suppliers, 2011.




OEI-06-09-00230             P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S         19
                  A P PEN D                           x                  B



            Agency Comments




             (J­  .......,'~
                                 DEPAIUMENT OF H1!ALTH & HUMAN SERVICES                                          Cenle", for Medicare & Medicaid Services


                                                                                                                 Administrlltor
                                                                                                                 Washington, DC 20201




                               DATE:
                                                NOV 0 2 2011

                               TO:            Daniel R. Levinson
                                              Inspector General

                               FROM:          Donald M. lle1\Vick, M.D.
                                              Administrato'r-

                               SUBJECT:        Office ofInspector General (OlG) Draft Report: "Program Integrity Problems
                                               with Newly Enrolled Medicare Suppliers of Durable Medical Equipment,
                                               Prosthetics, Orthotics, and Supplies" (OEI-06-09-00230)


                               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                               comment on the Office oflnspector General (OlG) draft report entitled, "Program Integrity
                               Problems with Newly Enrolled Medicare Suppliers of Durable Medical Equipment, Prosthetics,
                               Orthotics, and Supplies." The OIG had mUltiple objectives. First, it seeks to determine the
                               extent to which newly enrolled suppliers of durable medical equipment, prosthetics, orthotics,
                               and supplies (DMEPOS) had their billing privileges revoked or were placed on prepayment
                               claims review. Secondly, it seeks to determine the extent to which newly enrolled DMEPOS
                               suppliers omitted from their Medicare enrollment applications required information regarding (a)
                               owners/managers or (b) the criminal histories of owners/managers or any adverse legal actions
                               taken against those individuals.

                               The Affordable Care Act strengthens the focus on the integrity of the Medicare, Medicaid, and
                               Children's Health Insurance Program (CHIP) programs and ,provides important new tools to
                               combat fraud and abuse, including enhanced provider and supplier screening requirements,
                               authority to suspend payments pending investigations of credible allegations of fraud, and, when
                               necessary, authority to impose moratoria on new providers and suppliers.

                               The DMEPOS benefit has historically been vulnerable to abuse. As such, CMS is taking
                               additional steps to address potential vulnerabilities in the ellfollment and claims payment process
                               for this supplier group using the authorities granted under the Atfordable Care Act. Under the
                               new screening provisions ofCMS 6028-FC I , currently enrolled (revalidating) DMEPOS are
                               considered a moderate-risk provider/supplier and all newly enrolling suppliers of DMEPOS are
                               considered a high-risk provider/supplier. Both risk groups are, therefore, subject to unannounced
                               site visits.

                               I CMS 6028-FC entitled. "Medicare, Medicaid and Children's Health Insurance Programs; Additional Screening
                               Requirements, Application Fees, Temporary Enrollment Moratoria, Payment Suspensions and Compliance Plans for
                               Providers and Suppliers" was published in the Federal Register on February 2, 20 II.




OEI·06·09·00230                      PROGRAM INTEGRITY PROBLEMS WITH NEWLY ENROLLED MEDICARE EQUIPMENT SUPPLIERS                                    20
    A   P P       E   N   D I      X           ~           B




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   21
    A   P P       E   N   D I      X           ~           B




OEI-06-09-00230                 P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   22
           A C K N O W L E D G M E N T S

                    This report was prepared under the direction of Kevin Golladay,
                    Regional Inspector General for Evaluation and Inspections in the Dallas
                    regional office; Blaine Collins, Deputy Regional Inspector General; and
                    Ruth Ann Dorrill, Deputy Regional Inspector General.
                    Tom Browning served as the Project Lead for this study and
                    Jennifer Gist served as the Lead Analyst. Other principal Office of
                    Evaluation and Inspections staff from the Dallas regional office who
                    contributed to the report include Ben Gaddis and Deborah McGurk.
                    Central office staff who contributed include Kevin Farber, Rob Gibbons,
                    Scott Manley, and Meghan Ruhnke.




OEI-06-09-00230     P R O G R A M I N T E G R I T Y P R O B L E M S W I T H N E W LY E N R O L L E D M E D I C A R E E Q U I P M E N T S U P P L I E R S   23
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims
Act, program exclusion, and civil monetary penalty cases. In connection with these cases,
OCIG also negotiates and monitors corporate integrity agreements. OCIG renders
advisory opinions, issues compliance program guidance, publishes fraud alerts, and
provides other guidance to the health care industry concerning the anti-kickback statute
and other OIG enforcement authorities.
